                                 CLOSEOUT FOR CASE M99010002

On 25 January 1999, NSF staff' brought an allegation of misconduct in science to our attention. It was
alleged that the subjec? falsely certified to the truthfulness of two NSF proposals,' one of which was
pending, when he included photocopies of letters of support that had been written for earlier NSF
proposals, some of which he had altered.
We reviewed the letters of support submitted with the two proposals as well as letters of support
contained in six earlier NSF proposals~five of which were declined, submitted by the subject. We
found the originals for the letters in the two proposals in the earlier proposals. We noted that the
subject's changes to the photocopied letters were minor; they did not disguise the fact that the
photocopied letters had been written in support of the earlier NSF proposals. We also f o y d additional
original letters of support fiom the same sponsors in the earlier proposals. Further, many of the letters of
support in the earlier proposals stated that the sponsor planned to continue to support the subject in his
future research projects. Finally, several letters of support described both previous financial assistance
provided the subject as well as planned future support.
The subject told us that he did not know he could not reuse letters of support from earlier proposals. He
said that his sponsors had supported his research for many years and continue to do so. He admitted that
the reuse of these letters was a short cut to save his and his supporters' time, but explained that all the
proposals which contained these letters of support planned work on related research projects. At our
suggestion, he wrote to the program manager who was handling the subject's currently pending
proposals to explain that he had reused letters of support originally written for his earlier proposals. He
said that if any of his pending proposals were recommended for funding, he would get new letters of
support fkom these supporters, if required. The subject said that, in the future, he would seek new letters
of commitment for each proposal and not reuse letters.
We concluded that, in this case, the subject's reuse of original letters of support intended for earlier
proposals and the few alterations he made to several of them, although not a good practice, did not rise
to the level of misconduct in science.
This inquiry is closed and no further action will be taken.
cc: Integrity, IG.
